                   SENSITIVE BUT UNCLASSIFIED


           United States Department of State

        and the Broadcasting Board of Governors

                   Office of Inspector General





     Security and

Intelligence Oversight



     Program Management

    Review (Phase I) of the

   Anti-Terrorism Assistance

            Program


   Report Number SIO-A-05-11, January 2005




                                     IMPORTANT NOTICE

 This report is intended solely for the official use of the Department of State or the Broadcasting
 Board of Governors, or any agency or organization receiving a copy directly from the Office of
 Inspector General. No secondary distribution may be made, in whole or in part, outside the
 Department of State or the Broadcasting Board of Governors, by them or by other agencies or
 organizations, without prior authorization by the Inspector General. Public availability of the
 document will be determined by the Inspector General under the U.S. Code, 5 U.S.C. 552. Improper
 disclosure of this report may result in criminal, civil, or administrative penalties.




                   SENSITIVE BUT UNCLASSIFIED

                            SENSITIVE BUT UNCLASSIFIED





                           TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

OBJECTIVES, SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

LIST OF RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

APPENDIX A: AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23





                                SENSITIVE BUT UNCLASSIFIED

                       SENSITIVE BUT UNCLASSIFIED





                       EXECUTIVE SUMMARY (U)


(U)       The Anti-terrorism Assistance (ATA) Program of the State Department
(the Department) provides an increasingly important policy tool in the U. S.
government's war against international terrorism. The authority of the President to
furnish ATA assistance to foreign countries was established by Congress in
November 19831. The program enhances the anti-terrorism skills of friendly
nations, strengthens bilateral ties, and increases respect for human rights. Since its
inception, the program has trained and assisted over 36,000 foreign security and
law enforcement personnel from 130 countries. The size and range of the
program's activities have substantially expanded since the terrorist attacks of
September 11, 2001. In fiscal year 2003 alone, ATA trained more than 5,000
students from 53 countries.

(U)          The Office of Inspector General (OIG) undertook this review to evaluate
the ATA program's management, in view of the program's recent growth. The
review is being performed in two phases, and a separate report is being issued on
the areas evaluated in each phase. This report, focusing on the initial phase,
provides OIG's assessment of the implementation of program management respon-
sibilities, the organizational staffing structure of the Bureau of Diplomatic Secu-
rity, Office of Anti-terrorism Assistance (DS/ATA), and the management controls
for weapons acquired for DS/ATA's in-country training programs abroad. The
review's second phase will focus on ATA's overseas and domestic training activities
and the planned significance of the program's Center for Anti-Terrorism and
Security Training.

(U)       The ATA Program has been very successful in meeting the substantial
needs for anti-terrorism training since September 11, 2001. Program training has
grown from 3,288 students from 45 countries in FY 2001 to 5,280 students from
55 countries as of July 2004. In addition, ATA training capacity has been in-
creased through establishment of in-country training facilities in Afghanistan,
Colombia, Indonesia, and Pakistan. However, OIG has concluded that improve-
ments should be made, to ensure that program objectives continue to be achieved.
Specifically,


1
    (U) P.L. 87-195, Pt. II, § 571, codified in 22 U.S.C. § 2349aa.



                      OIG Report No. SIO-A-05-11, Program Management Review (Phase I ) of the Anti-Terrorism Assistance Program - January 2005   1 .

                        SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



             • The respective program responsibilities of the Office of the Coordinator
               for Counterterrorism (S/CT) and DS/ATA, confirmed by the Acting
               Secretary of State in 1991, should be reassessed in view of the program's
               substantial growth,

             • The staffing structure of DS/ATA should be evaluated, to ensure there
               are sufficient direct-hire personnel to provide long-term stability for the
               program, and

             • DS/ATA needs to confirm complete accountability for all weapons
               acquired for use in DS/ATA's four overseas, in-country training programs.

      AGENCY COMMENTS (U)
      (U)       DS and S/CT reviewed a draft version of this report. DS provided a
      written response to the draft and S/CT advised OIG that S/CT concurred with
      DS's written response. The DS response indicated agreement, or agreement in
      principle, with all of the report's recommendations, except Recommendation 2 as
      that recommendation was stated in OIG's draft report.

      (U)        The draft version of Recommendation 2 pertained to the needs assess-
      ment and program evaluation functions that are performed by the Assessment and
      Review (AR) Branch of DS/ATA's Program Management Division. Under current
      practice, the AR Branch assesses a country's ATA training needs (needs assess-
      ment) and develops that country's ATA training program, drawing on the needs
      assessment's results. Subsequently, through its program evaluation function, the
      AR Branch evaluates the effectiveness of training that was provided. In OIG's
      view, this practice raises a question regarding the objectivity of the AR Branch's
      program evaluations since the branch is evaluating a country's training program that
      it had previously developed. Therefore, to ensure objectivity is achieved by
      program evaluations, OIG called for the needs assessment and program evaluation
      functions to be separated by transferring the program evaluation function from
      DS/ATA to S/CT in the draft version of Recommendation 2.

      (U)         Although DS acknowledges a perceived problem of questionable objec-
      tivity, it disagreed with the recommendation as it was stated in the draft report and
      requested that the issue be among the other elements of consideration in the
      reassessment of ATA Program management responsibilities that OIG calls for in
      Recommendation 1. OIG agrees with DS's proposed approach and has restated
      Recommendation 2 accordingly.




2 .                 OIG Report No. SIO-A-05-11, Program Management Review (Phase I ) of the Anti-Terrorism Assistance Program - January 2005

                SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED



(U)      DS's written comments to all of OIG's recommendations are summarized
in the body of this report. OIG evaluated those comments and modified the text
as appropriate. DS's response is included in its entirety in Appendix A.




             OIG Report No. SIO-A-05-11, Program Management Review (Phase I ) of the Anti-Terrorism Assistance Program - January 2005

               SENSITIVE BUT UNCLASSIFIED                                                                                               -
                                                                                                                                        3 .
             SENSITIVE BUT UNCLASSIFIED





-
4 .    OIG Report No. SIO-A-05-11, Program Management Review (Phase I ) of the Anti-Terrorism Assistance Program - January 2005

      SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED





               OBJECTIVES, SCOPE, AND
                  METHODOLOGY (U)


(U)        This review is part of OIG's ongoing work of overseeing the
Department's activities to counter international terrorism. The review was initiated
to evaluate the management of the Department's ATA Program, in view of its
recent substantial growth, and is being performed in two phases. This report for
the initial phase provides OIG's assessment of the

       • implementation of program management responsibilities,

       • organizational staffing structure of DS/ATA, and of the

       • management controls for weapons acquired for DS/ATA's four in-country
         training programs abroad.

(U)      Fieldwork was principally performed between February and July 2004 at
S/CT and relevant DS offices at Department headquarters. Members of OIG's
review team interviewed appropriate program officials and reviewed needs assess-
ments, evaluation reports, financial documents, and other relevant documentation.
Members of the review team included Ambassador Fernando Rondon, James
Martino, Joseph Guba, Stephanie Hwang, and Dennis McCloskey.




              OIG Report No. SIO-A-05-11, Program Management Review (Phase I ) of the Anti-Terrorism Assistance Program - January 2005   5 .

                SENSITIVE BUT UNCLASSIFIED
             SENSITIVE BUT UNCLASSIFIED





-
6 .    OIG Report No. SIO-A-05-11, Program Management Review (Phase I ) of the Anti-Terrorism Assistance Program - January 2005

      SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED





                                    BACKGROUND (U)


(U)       The Secretary of State is responsible for managing the ATA Program, in
coordination with other Federal agencies2. The program is based on the recognition
that the United States cannot independently defeat international terrorism and that
the protection of U.S. citizens, diplomatic personnel, and official facilities cannot
be assured without the cooperation of foreign governments and the enhanced law
enforcement capabilities of those nations.

(U)         While much anti-terrorism training is provided in the United States at
facilities such as the Louisiana State Police Academy (Baton Rouge, Louisiana) and
the Department of Energy Nonproliferation and National Security Institute (Albu-
querque, New Mexico), an increasing amount of it is or will be conducted overseas
through the ATA program's in-country "Fly-Away" Program and the program's
in-country training centers in Afghanistan, Colombia, Indonesia, and Pakistan. An
ATA training course focuses on one of four functional categories: Crisis Preven-
tion, Crisis Management, Crisis Resolution, and Investigations. A number of
courses are included in each of these categories to address specific aspects of a
category's function.




2
    See 22 U.S.C. § 4802.



                     OIG Report No. SIO-A-05-11, Program Management Review (Phase I ) of the Anti-Terrorism Assistance Program - January 2005   7 .

                       SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED




      PROGRAM GROWTH (U)
      (U)       Funding for the ATA Program has grown substantially in recent years,
      from $37 million authorized in FY 2002 to $63 million in FY 2003 and $96 million
      for FY 2004. Approximately $128 million is approved for FY 2005. Supplemental
      assistance is not reflected in these figures. Further information is provided in
      Table I.

                                        Table I: ATA Program Funding
                                               ($ in thousands) (U)




      (U)      ATA Program training has also grown in recent years. Data on this is
      provided in Table II.

                                 Table II: Summary ATA Training Provided
                                 October 1, 2000 through July 21, 2004 (U)




      3
       (U) The FY 2002 supplemental assistance included: $20 million for the protection of Afghan President
      Hamid Karzai, $25 million for the Colombian Anti-Kidnapping training program, $8 million for Indone-
      sian counterterrorism training, and $10 million for Pakistan counterterrorism training.
      4
          (U) Karzai protection funding.


8 .                       OIG Report No. SIO-A-05-11, Program Management Review (Phase I ) of the Anti-Terrorism Assistance Program - January 2005

                     SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED


RECENT PROGRAM ACCOMPLISHMENTS (U)
(U)       A number of improvements have been made in the ATA Program in
recent years. Some of the more notable improvements are:

Memorandum of Intent (MOI). DS/ATA recently initiated the practice of
establishing MOIs between the United States and countries participating in the
ATA Program. These MOIs clearly outline to participating nations the United
States' plan to assist those nations in strengthening their counterterrorism capabili-
ties.

In-country Training Facilities. DS/ATA has recently established, or is establish-
ing, ATA training facilities closer to the areas of need in Afghanistan, Colombia,
Indonesia, and Pakistan. The training facilities will be turned over to those coun-
tries in the future, as part of U.S. foreign assistance. At the facilities, DS/ATA will
train the countries' police and military forces in crisis-response and explosive-
incident countermeasures, among other subjects. DS/ATA is also providing
equipment, including weapons and ammunition, to trainees at the conclusion of a
course.

Program Review Rating System. DS/ATA has established a quantifiable needs
assessment and program-review rating system. The rating system measures a
country's capabilities to deter terrorism across a wide spectrum of functions and
ranks the host government's capabilities in 25 critical anti-terrorism competencies.

ATA Liaison Officer. S/CT and DS/ATA management jointly established an
ATA liaison officer position within S/CT. The position is designed to be staffed by
an experienced contractor-employee and to facilitate S/CT's relevance, understand-
ing, and responsiveness to DS/ATA program issues.

PROGRAM RESPONSIBILITIES OF S/CT AND DS (U)

Delineation of Responsibilities (U)
(U)       Responsibilities for managing the ATA program were delineated by S/CT
and DS and approved by the Acting Secretary of State in 1991. These responsibili-
ties remain in force and are summarized as follows.




               OIG Report No. SIO-A-05-11, Program Management Review (Phase I ) of the Anti-Terrorism Assistance Program - January 2005   9 .

                 SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



       (U)    S/CT is responsible for

             • Providing policy guidance for ATA, recognizing that the ATA Program is
               a major element of the U.S. government's efforts to protect American
               interests from terrorism and to enhance the anti-terrorism skills of friendly
               nations.

             • Determining which countries should receive ATA assistance and suggest-
               ing categories of training that should be considered for each country
               recommended.

             • Leading U.S. government delegations during visits to assess a nation's
               needs, for countries selected to participate in the ATA Program for the
               first time. (The delegations will include a DS representative.)

             • Evaluating the extent to which ATA programs further U.S. government
               counter-terrorism policy goals. These evaluations should involve person-
               nel from both S/CT and DS.

             • Providing DS with written policy guidance for financial management that
               includes regional, country, and training priorities and general guidance on
               program fiscal parameters.

       (U)    DS is responsible for

             • Managing all operational aspects of the program, including fiscal manage-
               ment.

             • Informing Congress regarding the intent to add a nation to the list of
               those in the ATA program.

             • Developing a country-specific ATA training proposal, drawing upon
               objectives determined during the country needs-assessments visit, policy
               guidance provided by S/CT, and other factors.

             • Developing all training curricula, identifying and selecting trainers, and
               evaluating the training provided.

             • Evaluating training effectiveness and progress toward training program
               objectives. (These evaluations should involve personnel from both DS
               and S/CT.)




10 .                OIG Report No. SIO-A-05-11, Program Management Review (Phase I ) of the Anti-Terrorism Assistance Program - January 2005

               SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED





  FINDINGS AND RECOMMENDATIONS (U)



ATA Program Management (U)
(U)       A cooperative relationship exists between S/CT and DS/ATA regarding
the ATA Program, but the program's effectiveness could be improved through
stronger involvement by S/CT. Due to the wide scope of S/CT's counterterrorism
responsibilities beyond the ATA program, budget constraints, and the fact that
some S/CT officers lack practical experience assessing countries' ATA needs,
S/CT provides limited input to DS/ATA for the ATA Program's operation. For
example, although S/CT provides ATA policy guidance to DS/ATA, the guidance
lacks specificity, especially regarding a particular terrorist threat that may exist in a
given country. In addition, S/CT has not been participating in ATA needs assess-
ments for first-time participants, although these assessments determine general
ATA policy and training objectives for those countries.

 (U)       S/CT's limited input to DS/ATA may unintentionally affect the quality
of DS/ATA's activities in response to the document approved by the Acting
Secretary of State in 1991 delineating program management responsibilities. For
example, because policy guidance from S/CT lacks specificity especially with
respect to particular terrorist threats, DS/ATA may have difficulty developing
country-specific ATA training proposals that target a country's specific ATA needs
or particular terrorist threats. Correspondingly, DS/ATA's responsibility for the
program's fiscal management may be affected because detailed program require-
ments may not be realized by DS/ATA. Consequently, program requirements may
fail to be considered as DS/ATA develops the program's budget priorities.

(U)       The 1998 bombings of U.S. embassies in Kenya and Tanzania and the
September 11, 2001 terrorist attacks profoundly affected the Department. In
response, the roles, expectations, and responsibilities of S/CT, DS, and the ATA
Program have grown exponentially. However, the delineation of ATA Program
management responsibilities was approved by the Acting Secretary of State 13
years ago, in 1991. Since then S/CT and DS have adapted to dramatic changes.
Now, OIG believes it is time for the program's management responsibilities to be
reviewed again and updated as necessary, to ensure the ATA Program continues to
provide an effective policy tool for the U. S. government's war against international
terrorism.


               OIG Report No. SIO-A-05-11, Program Management Review (Phase I ) of the Anti-Terrorism Assistance Program - January 2005   11 .

                 SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



          Recommendation 1: (U) The Office of the Coordinator for
          Counterterrorism (S/CT), in coordination with the Bureau of Diplomatic
          Security (DS), Office of Anti-terrorism Assistance, should reassess their
          respective responsibilities for managing the ATA Program, giving careful
          consideration to budget constraints, S/CT's counterterrorism responsibilities
          beyond the ATA Program, and other factors to which S/CT and DS have
          adapted. They should then update the document approved by the Acting
          Secretary of State in 1991 delineating program management responsibilities.
          (Action: S/CT, in coordination with DS/ATA)

       (U)       S/CT and DS agreed with this recommendation and to update the docu-
       ment approved in 1991 delineating management responsibilities if necessary.
       DS/ATA has developed a preliminary model for a proposed new relationship that
       will serve as a basis for the program management reassessment.

       DS/ATA Needs Assessments and Program Evaluations (U)
       (U)        Current practice is for the AR Branch of DS/ATA's Program Manage-
       ment Division to assess a country's ATA training needs (needs assessment) and
       develop that nation's ATA training program, drawing on the assessment's results.
       Subsequently, the AR Branch evaluates the effectiveness of the training and its
       progress toward achieving the country's training program objectives (program
       evaluation). This practice raises questions about the objectivity of the program
       evaluations because the AR Branch is evaluating the very training that it devel-
       oped. According to the delineation of ATA Program management responsibilities
       that were approved in 1991, S/CT personnel should be involved in program evalu-
       ations, although S/CT has not had such involvement in recent years.

       (U)       In OIG's view, the program evaluation function should be located within
       S/CT and should have a more formal structure and greater autonomy. This should
       serve to improve the analytical capability of S/CT in selecting country participants
       and measuring the effectiveness of the country's training. DS/ATA's AR branch
       should continue to perform the needs assessments for the country's ATA training
       program and modify the ATA training curriculum as necessary.




12 .                 OIG Report No. SIO-A-05-11, Program Management Review (Phase I ) of the Anti-Terrorism Assistance Program - January 2005

                 SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED



   Recommendation 2: (U) The Bureau of Diplomatic Security, in coordina-
   tion with the Office of the Coordinator for Counterterrorism (S/CT), as part
   of the reassessment of ATA Program management responsibilities refer-
   enced in Recommendation 1, should address the objectivity of having
   DS/ATA's Assessment and Review Branch perform the needs assessment
   and subsequent program evaluation for a country receiving ATA training.
   (Action: DS, in coordination with S/CT)


(U)       DS disagreed with Recommendation 2, as stated in OIG's draft report,
and requested that the issue be subsumed in the larger issue addressed in Recom-
mendation 1. The draft report recommended that DS, in coordination with S/CT,
transfer the program evaluation function from DS/ATA to S/CT, to ensure that the
evaluations provide objective program analyses.

(U)       DS pointed out that the 1991 document delineating ATA Program man-
agement responsibilities calls for an ATA-S/CT joint effort in measuring program
effectiveness. DS believes that that concept is still the most appropriate and that,
rather than transferring the function in entirety to S/CT, the perceived problem
should be fixed by establishing a procedure for joint evaluation.

OIG Analysis (U)
(U)    OIG agrees with DS's proposed approach to the issue and has restated
Recommendation 2 accordingly.

STAFFING STRUCTURE OF DS/ATA (U)

DS/ATA Staffing (U)
(U)       Although funding for the ATA Program has grown substantially in recent
years, the number of direct-hire personnel in DS/ATA has increased much more
modestly. In FY 2002, DS/ATA was comprised of 23 direct-hire, full-time posi-
tions (FTP). In October 2003, the Bureau of Human Resources (HR) approved a
reorganization plan for DS/ATA that authorized nine additional FTPs for the
office.

(U)       As of July 2004, 14 of DS/ATA's 32 authorized, direct-hire FTPs were
vacant. Candidates for four of the 14 vacancies have accepted employment offers
(three Foreign Service and one Civil Service) and are waiting for starting dates.
The remaining ten Civil Service positions are in various stages of the Department's
hiring process.

               OIG Report No. SIO-A-05-11, Program Management Review (Phase I ) of the Anti-Terrorism Assistance Program - January 2005   13 .

                 SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



         (U)     DS/ATA has also used contractors to staff the office, in response to its
       increased workload. The total number of contract personnel fluctuates with
       demand. About 50 contractors were employed by DS/ATA during July 2004,
       through the office's contract with the United States Investigations Service.

       Management Control of Contractors (U)
       (U)        DS/ATA needs to improve its control over its contract personnel.
       Although contractors may not perform functions that are inherently governmental5,
       the hiring and termination of DS/ATA's contractor staff was effectively managed
       by a contract employee who received minimal oversight from DS/ATA. In addi-
       tion, six direct-hire, DS/ATA employees reported to a contractor who served as
       the chief of DS/ATA's Training Development Division. (DS/ATA is replacing
       that division chief with a direct-hire employee.)

       (U)       DS/ATA also needs to assess the degree to which the office should rely
       on contract personnel to perform DS/ATA work. DS/ATA's workforce require-
       ments were not analyzed as part of the reorganization proposal that was approved
       by the Bureau of Human Resources in October 2003. Although it appears that
       DS/ATA's strategy of employing contract personnel to meet recent increased ATA
       work demands has been generally successful in recent years, there is no reason to
       believe that ATA demands will return to pre-September 2001 levels. More likely,
       demand will grow more rapidly. Such high demand requires long-term commitment
       and institutional stability.

       (U)       DS/ATA should seek assistance from the Bureau of Human Resources
       and obtain that bureau's advice and recommendations for managing DS/ATA's
       expected long-term personnel requirements. At a minimum, DS/ATA should
       obtain advice on the direct-hire and contractor staffing levels that are needed to
       address DS/ATA's anticipated long-term work demands. It should also obtain
       advice on the appropriate number and mix of Foreign and Civil Service employees
       required to accomplish DS/ATA's mission, the appropriate placement of contract
       personnel within DS/ATA's organization structure, and the relative level of
       contractor expertise required for particular contractor positions, such as Functional
       Analyst I or Security Specialist IV.




       (U) U.S. government policy regarding performance of inherently governmental functions is addressed in
       5

       Office of Management and Budget Circular A-76, dated May 29, 2003.




14 .                    OIG Report No. SIO-A-05-11, Program Management Review (Phase I ) of the Anti-Terrorism Assistance Program - January 2005

                   SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



      Recommendation 3: (U) The Bureau of Diplomatic Security Office of
      Anti-terrorism Assistance (DS/ATA) should ensure that the 14 direct-hire
      positions that were vacant as of July 2004 are staffed with qualified person-
      nel as expeditiously as possible. (Action: DS/ATA)


(U)        DS concurred with this recommendation.


      Recommendation 4: (U) The Executive Director of the Bureau of Diplo-
      matic Security (DS) should obtain advice and assistance from the Bureau of
      Human Resources on the direct-hire and contractor staffing levels needed to
      address DS/ATA's anticipated long-term work demands, the appropriate
      number and mix of Foreign and Civil Service employees required to accom-
      plish DS/ATA's mission, the appropriate placement of contract personnel
      within DS/ATA's organization, and the relative level of expertise required
      for particular contractor positions. (Action: DS/EX)

 (U)      Responding to DS comments, OIG revised the action entity in this
recommendation, shifting it from DS/ATA to DS/EX. The rationale for the
change is explained in the following paragraphs.

(U)       DS concurred with the intent of the recommendation as stated in OIG's
draft report. However, in its written comments to the draft, DS requested that
action for responding to the recommendation be assigned to the Bureau of Human
Resources. DS indicated that Office of Personnel Management (OPM) policies
restrict DS/ATA from factoring contractor responsibilities in the determination of
the number and grade levels of the program's direct-hire supervisory and manage-
ment positions. Consequently, the Bureau of Human Resources' involvement was
necessary for OPM to determine available alternatives for addressing the OPM
policy restrictions.

(U)        After receiving DS's written comments to the draft report, OIG discussed
the issue with a representative of the Executive Director of the Bureau of Diplo-
matic Security (DS/EX). In that discussion, the Executive Director's representa-
tive reaffirmed that alternatives for addressing the OPM policy restrictions should
be sought and that the Bureau of Human Resources' involvement was needed.
However, the representative indicated that DS/EX should be involved with this
bureau staffing issue and work closely with the Bureau of Human Resources to
seek a satisfactory solution for DS/ATA's staffing structure.




                 OIG Report No. SIO-A-05-11, Program Management Review (Phase I ) of the Anti-Terrorism Assistance Program - January 2005   15 .

                   SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED




          OIG Analysis (U)
          (U)       OIG believes that DS should have a prominent role in addressing
          DS/ATA's staffing requirements and therefore does not agree that action to
          respond to the recommendation should be assigned to the Bureau of Human
          Resources. After discussing it with the DS/EX representative, OIG believes that
          the DS/ATA issue would be more appropriately addressed as a DS bureau-level
          staffing matter. Therefore, OIG redirected action for responding to the recommen-
          dation from DS/ATA to DS/EX.

          DS/ATA CONTROLS - WEAPONS FOR IN-COUNTRY PROGRAMS (U)
       (b) (5)




          (U)       In addition, Diplomatic Freight Services, Incorporated, and Diplomatic
          Freight Services Logistics, Limited Liability Corporation, which are establishing
          ATA training facilities at overseas locations under contracts with the Department,
          have received and accepted weapons for in-country programs as part of their
          contracts' services. According to 6 FAM 235.4b, acceptance of property on behalf


16 .                    OIG Report No. SIO-A-05-11, Program Management Review (Phase I ) of the Anti-Terrorism Assistance Program - January 2005

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



of a Federal agency is an inherently governmental function that is to be performed
only by officers and employees of the U.S. government. Therefore, the contracts
with these companies should be immediately amended to ensure that the contrac-
tors are prohibited from signing for the receipt of and acceptance of property for
the U.S. government.


      Recommendation 5: (U) The Bureau of Diplomatic Security Office of
      Anti-terrorism Assistance (DS/ATA) should confirm complete accountabil-
      ity for the total number of weapons that have been acquired for, shipped to,
      and received and accepted by in-country training programs in Afghanistan,
      Colombia, Indonesia, and Pakistan. (Action: DS/ATA)


(U)        DS concurred with this recommendation.


      Recommendation 6: (U) The Executive Director of the Bureau of Diplo-
      matic Security (DS/EX) should ensure that a principal custodial property
      officer in DS's Office of Anti-terrorism Assistance (DS/ATA) is designated
      to be accountable to DS's accountable property officer for controlling
      DS/ATA's weapon items. (Action: DS/EX)


(U)        DS concurred with this recommendation.


      Recommendation 7: (U) The principal custodial property officer in the
      Bureau of Diplomatic Security Office of Anti-terrorism Assistance
      (DS/ATA) should establish DS/ATA procedures to implement the
      Department's property management requirements. (Action: DS/ATA)


(U)        DS concurred with this recommendation.




                 OIG Report No. SIO-A-05-11, Program Management Review (Phase I ) of the Anti-Terrorism Assistance Program - January 2005   17 .

                   SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



             Recommendation 8: (U) The Bureau of Diplomatic Security Office of
             Anti-terrorism Assistance (DS/ATA) should request that the Bureau of
             Administration's Office of Acquisitions Management immediately amend
             the Department's contracts with Diplomatic Freight Services, Incorporated,
             and Diplomatic Freight Services Logistics, Limited Liability Corporation, to
             ensure that these contractors are prohibited from signing for the receipt of
             and accepting property for the U.S. government and performing any func-
             tions that are inherently governmental. (Action: DS/ATA)

       (U)        DS concurred with this recommendation.




18 .                   OIG Report No. SIO-A-05-11, Program Management Review (Phase I ) of the Anti-Terrorism Assistance Program - January 2005

                   SENSITIVE BUT UNCLASSIFIED
               SENSITIVE BUT UNCLASSIFIED





         LIST OF RECOMMENDATIONS (U)


Recommendation 1: (U) The Office of the Coordinator for Counterterrorism
  (S/CT), in coordination with the Bureau of Diplomatic Security (DS), Office of
  Anti-terrorism Assistance, should reassess their respective responsibilities for
  managing the ATA Program, giving careful consideration to budget constraints,
  S/CT's counterterrorism responsibilities beyond the ATA Program, and other
  factors to which S/CT and DS have adapted. They should then update the
  document approved by the Acting Secretary of State in 1991 delineating
  program management responsibilities. (Action: S/CT, in coordination with
  DS/ATA)

Recommendation 2: (U) The Bureau of Diplomatic Security, in coordination
  with the Office of the Coordinator for Counterterrorism (S/CT), as part of the
  reassessment of ATA Program management responsibilities referenced in Rec-
  ommendation 1, should address the objectivity of having DS/ATA's Assess-
  ment and Review Branch perform the needs assessment and subsequent pro-
  gram evaluation for a country receiving ATA training. (Action: DS, in coordina-
  tion with S/CT)

Recommendation 3: (U) The Bureau of Diplomatic Security Office of Anti-
  terrorism Assistance (DS/ATA) should ensure that the 14 direct-hire positions
  that were vacant as of July 2004 are staffed with qualified personnel as expedi-
  tiously as possible. (Action: DS/ATA)

Recommendation 4: (U) The Executive Director of the Bureau of Diplomatic
  Security (DS) should obtain advice and assistance from the Bureau of Human
  Resources on the direct-hire and contractor staffing levels needed to address
  DS/ATA's anticipated long-term work demands, the appropriate number and
  mix of Foreign and Civil Service employees required to accomplish DS/ATA's
  mission, the appropriate placement of contract personnel within DS/ATA's
  organization, and the relative level of expertise required for particular contractor
  positions. (Action: DS/EX)




               OIG Report No. SIO-A-05-11, Program Management Review (Phase I ) of the Anti-Terrorism Assistance Program - January 2005   19 .

                 SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



       Recommendation 5: (U) The Bureau of Diplomatic Security Office of Anti-
         terrorism Assistance (DS/ATA) should confirm complete accountability for the
         total number of weapons that have been acquired for, shipped to, and received
         and accepted by in-country training programs in Afghanistan, Colombia, Indone-
         sia, and Pakistan. (Action: DS/ATA)

       Recommendation 6: (U) The Executive Director of the Bureau of Diplomatic
         Security (DS/EX) should ensure that a principal custodial property officer in
         DS's Office of Anti-terrorism Assistance (DS/ATA) is designated to be ac-
         countable to DS's accountable property officer for controlling DS/ATA's
         weapon items. (Action: DS/EX)

       Recommendation 7: (U) The principal custodial property officer in the Bureau
         of Diplomatic Security Office of Anti-terrorism Assistance (DS/ATA) should
         establish DS/ATA procedures to implement the Department's property manage-
         ment requirements. (Action: DS/ATA)

       Recommendation 8: (U) The Bureau of Diplomatic Security Office of Anti-
         terrorism Assistance (DS/ATA) should request that the Bureau of
         Administration's Office of Acquisitions Management immediately amend the
         Department's contracts with Diplomatic Freight Services, Incorporated, and
         Diplomatic Freight Services Logistics, Limited Liability Corporation, to ensure
         that these contractors are prohibited from signing for the receipt of and accept-
         ing property for the U.S. government and performing any functions that are
         inherently governmental. (Action: DS/ATA)




20 .                 OIG Report No. SIO-A-05-11, Program Management Review (Phase I ) of the Anti-Terrorism Assistance Program - January 2005

                 SENSITIVE BUT UNCLASSIFIED
         SENSITIVE BUT UNCLASSIFIED





                     ABBREVIATIONS (U)


AR                        Assessment and Review Branch of DS/ATA Program
                          Management Division
ATA                       Anti-terrorism Assistance Program
DS                        Bureau of Diplomatic Security
DS/ATA                    DS Office of Anti-terrorism Assistance
EX                        Executive director
FAM                       Foreign Affairs Manual
FTP                       Full-time position
HR                        Bureau of Human Resources
MOI                       Memorandum of intent
OIG                       Office of Inspector General
OPM                       Office of Personnel Management
S/CT                      Office of the Coordinator for Counterterrorism




         OIG Report No. SIO-A-05-11, Program Management Review (Phase I ) of the Anti-Terrorism Assistance Program - January 2005   21 .

           SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED





-
22 .    OIG Report No. SIO-A-05-11, Program Management Review (Phase I ) of the Anti-Terrorism Assistance Program - January 2005

       SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED





                        APPENDIX A:


                       AGENCY COMMENTS




OIG Report No. SIO-A-05-11, Program Management Review (Phase I ) of the Anti-Terrorism Assistance Program - January 2005   23 .

  SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED





       (U) Recommendation 1: The Office of the Coordinator for Counterterrorism (S/CT)
       and the Bureau of Diplomatic Security, Office of Antiterrorism Assistance CDS/ATA)
       should reassess their respective responsibilities for managing the AT A Program, giving
       careful consideration to budget constraints, S/CT's counterterrorism responsibilities
       beyond the AT A Program, and other factors to which S/CT and DS have adapted. They
       should then update the AT A Program's 1991 management agreement. (Action: S/CT
       and DS/ATA)

       (U) OS Response: DS concurs with this recommendation. After dramatic grov.'1.h to the
       ATA program, DS and S /CT should reassess their respective responsibilities and, if
       necessary, update the 1991 management directive. OIG advised that S/CT regional
       officers had expressed a desire for "stronger involvement" in the AT A program. To that
       end, DSrr/ATA has developed a preliminary model for a proposed new relationship as a
       basis for beginning this discussion. The proposed model includes detailed S /CT review
       of the Needs Assessment/Program Review reports and subsequent panicipation in the
       presentation to recipient governments of the resulting original and updated Country
       Assistance Plans. This model provides opportunities for direct, involvement by the S/CT
       regional officers at the point in the process where they would be best able to politically
       leverage DSfTl AT A program training and equipment deliverablcs for USC policy
       objectives.

       (U) Recommendation 2: DS, in coordination with S/CT, should transfer the program
       evaluation function from DS /AT A to S/CT to ensure that evaluations produced provide
       objective program analyses. (Action: DS in coordination with S tCT)

       (U) OS Respo nse: DS disagrees with the recommendation to transfer the program
       evaluation function from DSrr/AT A to S/CT. The 1991 D-level directive calls for att
       AT A-S/CT joinl effort in measuring program effectiveness. DS believes that concept is
       still the most appropriate. DS and S/CT should not make the mistake of transferring the
       function in its entirety from ATA to S/CT, but rather fix the perceived problem by
       establishing a procedure for more joilll evaluation.

       Additionally, there are other compelling reasons why the evaluation function should
       remain with AT A:

       •    S/CT staffmemhers do not normally possess a law enforcement background
           ess",nliai fur- led",i..,.. l c,·..lualiull uf police 1" ograms;




...----------------------------------
24 .              OIG Report No. SIO-A-05-11, Program Management Review (Phase I ) of the Anti-Terrorism Assistance Program - January 2005

            SENSITIVE BUT UNCLASSIFIED
            SENSITIVE BUT UNCLASSIFIED





•    S /CT staff members generally do no t h ave the FederaL state, and local contacts on a
    law enforcement-to-law enforcement basis to arrange and adequately supervise
    professional expenise borrowed from other law enforcement o rganizat ions for
    effective evaluations;
•    The PrOb'Tam Review function is already accomplished using p rimarily interagency
    expert teams to ensure the professional qualifications of the assessors and an overall
    lack of bias in the process;
•    Most importantly, obj ectivity in the eval uations is maintained through the new
    Perfonnance Mea sures of Effectiveness program that i s transitioning AT A's p rogram
    evaluation reporting from a subjective to al. Objective system and has won
    commendation from OMB .

It should be noted that several years ago, S ICT reg ional officers were invited 10
participate in th e field evaluations of the program, bUi soon withdrew from participation
due to the lack of necessary and appropriatc roles in that phase of the process. OS
requests thai th is issue be subsumed in the larger issue addressed in Recommendation
above.

(U) R ecommendation 3 : The Bureau of Diplomatic Security, Office of Antiterrorism
Assistance should ensure that the 14 direct-hire positions that were vacant as of July 2004
arc staffed with qualified personnel as expeditiously as possible.

(U) OS Res ponse : DS concurs with th is recommendation. As of August 23, eight of t he
14 positions cited h ad either been filled, a selection made, or were in various stages of
announcement and selection. The remaining six are awai ting action o n drafting position
descriptions and resolving apportionment of Bureau-wide personnel shortages.

(U) Reco mme ndation 4: The Bureau of Diplomatic Security. Office of Antiterrorism
Assistance CDS/AT A) should obtain advice and assistance from the Bureau of Human
Resources on the direct-hire and contractor staffing levels needed to address DS/ATA's
anticipated long-tenn work demands, the appropriale number and mix of Foreign and
Civil Service employees required to accomplish DS/ AT A's mission. the appropriate
placement of contract personnel wi thin DS/AT A·s organization, and the relative level of
expertise required for particular contractor positions.




           OIG Report No. SIO-A-05-11, Program Management Review (Phase I ) of the Anti-Terrorism Assistance Program - January 2005

             SENSITIVE BUT UNCLASSIFIED
                                                                                                                                      -
                                                                                                                                      25 .
                          SENSITIVE BUT UNCLASSIFIED





        (lI) D S Rcspoll sC: DS concurs with the intent of this recommendation. We requesl the
       aClion be assigned to HR. Aftcr 30 months of attempting to resolve this issuc. DS
       believes thai final resolution will be possible only ifHR engages with th e Office of
       Personnel Management (OPM) to detemlinc al ternatives available to OS in dealing with
       aPM policies that restrict DSIT/A T A from taking into account the number and
       operational responsibilities of its contractors in detemlining the number and grade levels
       of the program's direct hire, supervisory and managemcnt positions.

       (S BU) Rl'"commendatinn 5: The Bureau of Diplomatic Security. Office of Antitcrrorism
       Assistancc (DS/AT A) should con finn complete accountability for the total number of
       weapons and related material that have been acquired for. shipped to, and received and
       accepted by in-country training programs in Afghanistan, Colombia, Indonesia and
       Pakistan. (Action: OS/ATA)

       (SBU) O S Rc""ponsc : This recommendation has been fully implemented. As of Augus t
       24, 2004, the AT A weapons inven lory was completed. OSIT/A TA knows of no lelhal
       firearms that are unaccounted for.

       Three non-lethal Simunition Training Pislols (two in Colombia and one in Pakistan) have
       been reported, missing from the inventory. Thc Colombia training pistols (serial numbers
       14463 and 14467) were identified as missing on or about March 7, 2004, and were
       reported as missing on May 7. The Colombia investigation is ongoing. The Pakistan
       training pistOl (serial number 14G07) was reported missing on or about J u ly 12, 2(104, 10
       the Program Manager. He investigated the loss and submitted his final investigative
       report on August 24. The report has not been fully reviewed.

       in addi tion, OS r=ommends that O IG delete the phrase "and related material" from the
       recommendation, because 1\ is unclcar 10 what it specifically re fers. The finding refers
       only to the issue of weapons.

       (U) Reeommcndafioll 6: The Executive Director of the Bureau o f Diplomatic Security
       (OS) should ensure that a principal custodial p roperly officer in OS' Office of
       Antiterrorism Assistance (DS/A T A) is designated to be accountable to OS' accountable
       property officer for controlling DS/A TA 's weapon items. (Action: OS/EX)




...----------------------------------
26 .                OIG Report No. SIO-A-05-11, Program Management Review (Phase I ) of the Anti-Terrorism Assistance Program - January 2005

               SENSITIVE BUT UNCLASSIFIED
             SENSITIVE BUT UNCLASSIFIED





(U) DS Response: OS concurs wi th this recommendation. A Custodial Officer in OS'
Office of Anti terrorism Assistance is designated to account for Administrative property
that does not include weapons. These duties will, however, be expanded to include
weapons inventory oversight. under the direction of OS' Defensive Equipment and
Annored Vehicles (DEAV) Division, which is accountable for all DS weapons.

(U) R eco mmendation 7: The principal custodial property officer in the Bureau of
Diplomatic Security, Office of Antiterrorism Assistance (DS/ATA) should establish
DS/AT A procedures to implement the D'ilartmcnt's property management requi rements.
(Action: DS/ATA)

(ll) DS R es pon se : DS concurs with this recommendation and will expand the duties of
DSff/AT A's assigned principal custodial officer in acco rdance with the intent of
Recommendations 6 and 7.

(U) R ecommendation 8: The Bureau of Diplomatic Security. Office of Antiterrorism
Assistance (DSJATA) should request that the Bureau of Administration's Office of
Acquisitions Management immediately amend the Department's contracts wi th
Diplomatic F.reight Services, Incorporated, and Diplomatic Freight Services Logistics,
Limited Liability Corporation, prohibiting these contractors from receiving and accepting
property for the U.S. government and perfonning any functions that arc inherently
governmental.

(U) DS Res ponse: OS concurs with this recommendation. We arc lookjng at alternative
methods of accomplishing this requiremen t such as replacing contractors with Persona!
Services Contractors, and having contractors initial for receipt of shipments but a direct­
hire employee will have the final signature for verification.




             OIG Report No. SIO-A-05-11, Program Management Review (Phase I ) of the Anti-Terrorism Assistance Program - January 2005

               SENSITIVE BUT UNCLASSIFIED
                                                                                                                                        -
                                                                                                                                        27 .
                      SENSITIVE BUT UNCLASSIFIED





       Clearances:   D$ID$$:JDMonon, ok 11 /4/04
                       DS/ EX:PPopovich. ok 11 / 3/04
                       DSlDssrr:WAnnor, ok 11/2104
                       DSfTl AT A:JRendeiro, ok 9/29/04
                       DSfTl AT A;GLamben, ok 9/29/04
                       DSfPSPIDEAV:SBemstein, ok 1112104
                       DSIEXlMGT:JEBurke, ok 11/3/04
                       D$IMGT/PPD:BWFerry, Acting, ok 1112(04
                       DSIMGTIHRM:JHiJI, ok 1112104
                       DSIMGT/LS:PHasiak, Acting, ok 10/ 29/04
                       DS/MGT/CAJ':GGrccn, Acting, ok 10/29104
                       S/CT:CBlack, ok 10/8/ 04
                       S/CT:KWycof. ok 10/8/04

       Drafted by:   DSfTlAT A:JChristopher
                      Ext. 3-4038,9/29/04
                      Revised 11 / 2/04




..,----------------------------------
28 .            OIG Report No. SIO-A-05-11, Program Management Review (Phase I ) of the Anti-Terrorism Assistance Program - January 2005

            SENSITIVE BUT UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
              of Federal programs
         and resources hurts everyone.

       Call the Office of Inspector General
                    HOTLINE
                   202-647-3320
                or 1-800-409-9926
         or e-mail oighotline@state.gov
      to report illegal or wasteful activities.

              You may also write to
           Office of Inspector General
            U.S. Department of State
              Post Office Box 9778
              Arlington, VA 22219
           Please visit our Web site at:
               http://oig.state.gov

        Cables to the Inspector General
       should be slugged “OIG Channel”
           to ensure confidentiality.
